Case No.
_____________________________________________________________
___________________________________________________
IN THE SUPREME COURT OF THE UNITED STATES
_____________________________________________________________
___________________________________________________
BRANDEN EDWARD SHUMATE
Petitioner
v.
STATE OF CALIFORNIA
Respondent
___________________________________________
ON PETITION FOR WRIT OF CERTIORARI
TO THE CALIFORNIA COURT OF APPEAL FOURTH
APPELLATE DISTRICT DIVISION THREE [DIRECT
APPEAL]

PETITION FOR WRIT OF CERTIORARI

FAY ARFA, A LAW CORPORATION
Fay Arfa, Attorney at Law
CA State Bar No. 100143
10100 Santa Monica Blvd., #300
Los Angeles, CA 90067
Tel.: (310) 841-6805
Fax :(310) 841-0817
Attorney for Petitioner
BRANDEN EDWARD SHUMATE

QUESTIONS PRESENTED
I.

Whether a Trial Court Deprives a Defendant of His
Right to Counsel by Discharging a Defendant’s Hired
Attorney of Choice Just Before Trial Was to Start

II.

Whether a Trial Court Deprives a Criminal
Defendant of His Right to Retained Counsel of
Choice at His Motion for New Trial and/or
Sentencing

i

TOPICAL INDEX
Page
QUESTIONS PRESENTED . . . . . . . . . . . . . . . . . . . . . . . . . . . . i
OPINION BELOW . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
JURISDICTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
RELEVANT CONSTITUTIONAL PROVISIONS . . . . . . . . . . 2
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
A.

State Trial Court Proceedings . . . . . . . . . . . . . . . 2

B.

State Court Appellate Proceedings . . . . . . . . . . . 2

REASONS TO GRANT CERTIORARI . . . . . . . . . . . . . . . . . . . 3
I.

The Trial Court Deprived Shumate of His Right to
Counsel by Discharging a Defendant’s Hired
Attorney of Choice Just Before Trial Was to Start . . 3
A.

Introduction . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

B.

The Chronology . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

1.

Judge King . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

2.

Judge Jensen . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6

C.

Legal Principles . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

D.

A Criminal Defendant Can Waive an AttorneyClient Conflict . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8

E.

The Trial Court Deprived Shumate of His
Constitutional Right to Counsel of Choice . . . . 9

ii

II.

F.

No Irreparable Conflict Existed Between Pilato
and Shumate . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11

G.

No Unreasonable Delay Existed . . . . . . . . . . . . 13

H.

Pilato Made an Untimely Request . . . . . . . . . . . 13

I.

Shumate’s Prior Marsden Motions Should Not
Have Been a Factor . . . . . . . . . . . . . . . . . . . . . . . . 14

J.

Prejudice Resulted From the Trial Court’s
Erroneous Ruling . . . . . . . . . . . . . . . . . . . . . . . . . 15

The Trial Court Deprived Shumate of His Right to
Retained Counsel of Choice at His Motion for New
Trial and/or Sentencing . . . . . . . . . . . . . . . . . . . . . . . . . 17
A.

Introduction . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17

B.

The Sixth Amendment Guarantees a Criminal
Defendant the Right to Hire Counsel of His
Choice . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18

C.

The Constitution Guarantees a Criminal
Defendant the Sixth Amendment Right to
Chosen Counsel at a Motion for New Trial . . . 19

D.

The January 11, 2018 Proceedings . . . . . . . . . . 20

E.

The Trial Court Deprived Shumate of His Right
to Counsel by Refusing to Allow Shumate to
Substitute His Privately Hired Attorney for
Post Conviction Proceedings . . . . . . . . . . . . . . . 21

F.

The CCA Relies on Inapposite Cases . . . . . . . . 27

G.

The Substitution of Counsel Would Not Have
Disrupted the Proceedings . . . . . . . . . . . . . . . . . 30

iii

CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 32
APPENDIX
A . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Court of Appeal Opinion
(Case No. G056263)
Request for Rehearing Denied
(Case No. G056263)
B . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Petition for Review Denied
(Case No. S266523)

iv

TABLE OF AUTHORITIES
FEDERAL CASES
Caplin and Drysdale, Chartered v. U.S., 491 U.S. 617 (1989) . . 19
Mansfield v. Borg, 881 F.2d 696 (9th Cir. 1989) . . . . 19, 20, 22, 25
Powell v. Alabama, 287 U.S. 45 (1932) . . . . . . . . . . . . . . . . . . . . 18
Robinson v. Ignacio, 360 F.3d 1044 (9th Cir. 2004) . . . . . . . . . . 19
Sampley v. AG of No. Carolina 786 F.2d 610 (4th Cir. 1986) . . . 30
United States v. Gonzalez-Lopez, 548 U.S. 140 (2006) 3, 16, 18, 27
United States v. Wade, 388 U.S. 218 (1967) . . . . . . . . . . . . . . . . 20
Wheat v. United States, 486 U.S. 153 (1988) . . . . . . . . . . . . . . . 8, 9
Wood v. Georgia, 450 U.S. 261 (1981) . . . . . . . . . . . . . . . . . . . . . . 8
STATE CASES
Dept. of Corporation v. SpeeDee Oil, 20 Cal.4th 1135 (1999) . . 7, 8
Heple v. Kluge, 104 Cal.App.2d 461 (1951) . . . . . . . . . . . . . . . . . 13
Mandell v. Superior Court, 67 Cal.App.3d 1 (1977) . . . . . . . . . . 14
Manfredi & Levine v. Superior Ct., 66 Cal.App.4th 1128 (1998) 10
People v. Bonin, 47 Cal.3d 808 (1989) . . . . . . . . . . . . . . . . . . . . . . 8
People v. Carpenter, 15 Cal. 4th 312 (1997) . . . . . . . . . . . . . . . . . . 8
People v. Clark, 3 Cal.4th 41 (1992) . . . . . . . . . . . . . . . . . . . . . . . 15

v

People v. Courts, 37 Cal.3d 784 (1985) . . . . . . . . . . . . . . . . . . 19, 24
People v. Dowdell, 227 Cal.App.4th 1388 (2014) . . . . . . . . . . . . . 28
People v. Keshishian, 162 Cal.App.4th 425 (2008) . . . . . . . . 27, 28
People v. Groce, 18 Cal.App.3d 292 (1971) . . . . . . . . . . . . . . . . . . 24
People v. Jones, 33 Cal. 4th 234 (2004) . . . . . . . . . . . . . . . . . . . . . 9
People v. Lara, 86 Cal. App. 4th 139 (2001) . . . . . . . . . . . . . . . . 28
People v. Lewis, 20 Cal.3d 496 (1978) . . . . . . . . . . . . . . . . . . . . . 24
People v. Lopez, 1 Cal. App.3d 78 (1969) . . . . . . . . . . . . . . . . . . . 20
People v. Munoz, 41 Cal.App.3d 62 (1974) . . . . . . . . . . . . . . . . . . 24
People v. Murphy, 35 Cal.App.3d 905 (1973) . . . . . . . . . . . . . . . . 14
People v. Ngaue, 229 Cal. App. 3d 1115 (1991) . . . . . . . . . . . . . . 22
People v. Prince, 268 Cal. App. 2d 398 (1968) . . . . . . . . . . . . 12, 14
People v. Salazar, 74 Cal.App.3d 875 (1977) . . . . . . . . . . . . . . . . 23
People v. Smith, 6 Cal.4th 684 (1993) . . . . . . . . . . . . . . . . . . . . . 19
People v. Trapps, 158 Cal.App.3d 265 (1984) . . . . . . . . . . . . . . . 29
People v. Welch, 20 Cal. 4th 701 (1999) . . . . . . . . . . . . . . . . . . . . . 8
FEDERAL CONSTITUTION
U.S. Const. amend. V . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . passim
U.S. Const. amend. VI . . . . . . . . . . . . . . . . . . . . . . . . . . . . . passim
U.S. Const. amend. XIV . . . . . . . . . . . . . . . . . . . . . . . . . . . . passim
vi

FEDERAL STATUTES
28 U.S.C. § 1257 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2

vii

Case No.
_____________________________________________________________
___________________________________________________
IN THE SUPREME COURT OF THE UNITED STATES
_____________________________________________________________
___________________________________________________
BRANDEN EDWARD SHUMATE,
Petitioner
v.
STATE OF CALIFORNIA
Respondent
___________________________________________
Petitioner, BRANDEN EDWARD SHUMATE, respectfully
petitions for a writ of certiorari to review the judgment of the
California Court of Appeal (CCA), Fourth Appellate District,
Division Three. (No. G056263)
OPINION BELOW
The CCA affirmed Shumate’s conviction and denied
rehearing. (Case No. G056263) (Appendix A) The California
Supreme Court (CSC) summarily denied review. (Case No.
S266523) (Appendix B)
JURISDICTION
On February 24, 2021, the CSC denied review. (Appendix

1

B) The Court has jurisdiction. 28 U.S.C. § 1257(A).
RELEVANT CONSTITUTIONAL PROVISIONS
U.S. Const. amends. V, VI, XIV.
STATEMENT OF THE CASE
A.

State Trial Court Proceedings

The prosecution alleged that Shumate committed three
counts of child molestation against two children under the age of
14 years old. Cal. Penal Code §288 (a).1 The jury convicted
Shumate of all three counts and found the enhancements true.
(14RT 2886 - 2890)
The trial court sentenced Shumate to 45 years to life.
(11CT 3343) (12RT 3125)
Shumate timely appealed. (11CT 3342)
B.

State Court Appellate Proceedings

The CCA denied Shumate’s direct appeal and his petition
for rehearing. (No. G056263) (Appendix A) The California
Supreme Court summarily denied his petition for review. (No.
S266523) (Appendix B)

Unless otherwise stated, all references are to the California
Penal Code.
1

2

REASONS TO GRANT CERTIORARI
I.

The Trial Court Deprived Shumate of His Right
to Counsel by Discharging a Defendant’s Hired
Attorney of Choice Just Before Trial Was to
Start

A.

Introduction

Shumate hired private attorney Louis Pilato on October 29,
2013. (1CT 17) Pilato represented Shumate throughout
Shumate’s preliminary hearing. (1CT 17) After the July 28, 2014,
preliminary hearing, Pilato continued to represent Shumate.
(1CT 30, 31) On October 16, 2014, Pilato abruptly moved to be
relieved. Judge King denied the request and sent the case to
Judge Jensen for trial. On October 16, 2014, over Shumate’s
objection, Judge Jensen relieved Pilato. (1RT 156-157) Judge
Jensen, by relieving Pilato, deprived Shumate of his
constitutional right to his attorney of choice. U.S. Const. amends.
V, VI, XIV. United States v. Gonzalez-Lopez, 548 U.S. 140, 147-48
(2006)
B.

The Chronology

1.

Judge King

After the preliminary hearing, on October 3, 2014, during a

3

995 motion, Shumate alleged that Attorney Pilato, who
represented him at the preliminary hearing rendered ineffective
assistance. (ART [10/03/14] 2-3) Because Shumate’s attorney,
Pilato, refused to raise the issue, Shumate wanted to raise the
issue himself. Judge King refused to accept Shumate’s in pro per
motion or hear Shumate’s in pro per argument because Shumate
had counsel. (ART [10/03/14] 3-6) Judge King heard and denied
Pilato’s motion to dismiss. § 995. (ART [10/03/14] 15)
On October 7, 2014, because Pilato was engaged in trial,
Judge King granted Pilato’s request to continue the trial over
Shumate’s objection. (ART [10/07/14] 19-23) Judge King again
refused to accept Shumate’s in pro per section 995 motion
alleging ineffective assistance of trial counsel. (ART [10/07/14] 256)
At the October 15, 2014 hearing, trial counsel notified the
court via telephone that, although he was engaged in trial, he was
ready for Shumate’s trial. (1RT at 93) Later that day, when trial
counsel arrived, he denied he was ready.
Because the prosecution did not oppose a continuance,
Judge King considered the “orderly administration of justice . . .
4

[and] the nature of the charges . . .” Judge King tentatively found
a conflict. Judge King then spoke with Shumate. Shumate knew
nothing about the conflict and told Judge King, “What’s taking
place now is news to me. I just heard of this just now and I’ve had
no notice whatsoever this was happening.” (1RT 99) (Italics
added.)
Shumate told the court that he had a “paid-in-full contact”
with Pilato. Shumate explained that Pilato did not show up at his
arraignment and that Pilato “wanted to postpone it and try to get
more money out of a paid-in-full contract which is paid through
trial.” (1RT 100) (4CT 907-908)
Judge King originally accepted Pilato’s conflict and relieved
him. (1RT at 101) But the next day, on October 16, 2014, Judge
King, in light of Shumate’s opposition to the conflict, reconsidered
his decision. (1RT at 107) Pilato advised the court that, based on
his refusal to file the ineffective assistance of counsel motion,
Shumate believed Pilato was “working with the district attorney’s
office and violating his rights” and “conspiring” with the court to
violate his rights. (1RT107-108)
Judge King ruled that, because of the timing of counsel’s
5

request to be relieved, the “long history” of the case, because the
prosecution answered ready, and considering the orderly
administration of justice, that “the defendant cannot create a
conflict.” (1RT109) Judge King denied the motion to relieve
counsel and sent the case to Judge Jensen for trial. (1RT110)
2.

Judge Jensen

On October 16, 2014, in Judge Jensen’s court, Shumate
filed a document opposing Pilato’s removal from the case.
(1RT138) Shumate explained that he wanted Pilato, who had
been fully paid, to continue to represent him. (1RT120) (4CT 907908) Shumate explained how Pilato “manufactured” a conflict
because Shumate exercised his right to a speedy trial; Judge King
refused to grant Pilato a continuance past 60 days. (4CT 907-908)
Pilato reaffirmed his reasons for requesting to be relieved
as counsel, namely Shumate’s belief that he acted ineffectively
and he conspired with the prosecution and Judge King. (1RT at
126) Pilato also explained that Shumate does not “appreciate the
comments I may make to the court, he likes to voice his own
comments and interrupt me and interrupt whatever is going on
and makes those scenes.” (1RT at 126)
6

Shumate still wanted to keep Pilato as his attorney.
(1RT130) Judge Jensen had a jury ready to proceed with
Shumate’s case that afternoon. (1RT134)
Shumate believed trial counsel staged a conflict to
circumvent Shumate’s refusal to waive time. (1RT 140) Shumate
denied that he and Pilato ever had a “falling out.” (1RT 142)
Shumate said, “This is all coming out of nowhere. And I don’t
know if it’s his relationship with my dad, or something like that,
but that shouldn’t affect my case. That’s how I feel.” (1RT 142)
C.

Legal Principles

“A trial court's authority to disqualify an attorney derives
from the power inherent in every court ‘[t]o control in furtherance
of justice, the conduct of its ministerial officers, and of all other
persons in any manner connected with a judicial proceeding
before it, in every matter pertaining thereto.’ ” Dept. of Corp. v.
SpeeDee Oil Change Systems, 20 Cal.4th 1135, 1145 (1999).
Inherent in the question whether a trial court may
disqualify a criminal defense attorney over the defendant's
objection is the conflict between the defendant's preference to be
represented by that attorney and the court's interest in “ensuring
7

that criminal trials are conducted within the ethical standards of
the profession and that legal proceedings appear fair to all who
observe them.” Wheat v. United States, 486 U.S. 153, 160 (1988);
see also SpeeDee Oil, at 1144–1147.
Tactical disagreements between the defendant and his
attorney do not by themselves constitute an “irreconcilable
conflict.” “When a defendant chooses to be represented by
professional counsel, that counsel is ‘captain of the ship’ and can
make all but a few fundamental decisions for the defendant.”
People v. Carpenter, 15 Cal. 4th 312, 376 (1997); People v. Welch,
20 Cal. 4th 701, 728-29 (1999).
D.

A Criminal Defendant Can Waive an AttorneyClient Conflict

When a court learns of a possible conflict between defense
counsel and the defendant, the court must inquire into the
possibility of the conflict. Wood v. Georgia, 450 U.S. 261, 272
(1981): People v. Bonin, 47 Cal.3d 808, 837 (1989). The inquiry
ensures that the defendant's Sixth Amendment right to
conflict-free counsel is not violated. Wood, 450 U.S. at 272-273.
“California makes a defendant the master of his fate and

8

allows him to proceed uninterrupted, with the exceptions of
flagrant circumstances of attorney misconduct or incompetence
[citation], with counsel of his choice if the parties involved in the
conflict properly waive any potential or actual conflicts.” People
v. Jones, 33 Cal. 4th 234, 252 (2004)
When the right to preferred counsel under the Sixth
Amendment collides with the right to the effective assistance of
counsel, also guaranteed by the Sixth Amendment, an
accommodation must occur. In such cases, a court “must
recognize [the] presumption in favor of [defendant's] counsel of
choice … may be overcome not only by a demonstration of actual
conflict but by a showing of a serious potential for conflict.”
Wheat, 486 U.S. at 164.
E.

The Trial Court Deprived Shumate of His
Constitutional Right to Counsel of His Choice

The trial court relieved Shumate’s private counsel of choice
finding “a conflict of interest does exist and allow[ing] this case to
proceed with current counsel would, in the court’s opinion, result
in defendant getting trial with ineffectiveness of counsel.” Judge
Jensen discharged Pilato (1RT 156-157)

9

Pilato filed no written declaration, under penalty of perjury,
of a conflict of interest. Pilato merely advised the trial court in
open court that Shumate did not believe he [Pilato] did a good job
and was working with the prosecutor. (1RT 127-128) Pilato failed
to give enough information for the court to conclude Pilato had a
conflict of interest that precluded him from representing
Shumate.
Judge Jensen deprived Shumate of his constitutional right
to his counsel of choice. Pilato never gave the trial court
meaningful information about the nature of the alleged conflict.
Cf. Aceves v. Superior Court, 51 Cal.App.4th at 593 (Counsel gave
the court meaningful information about the conflict.)
Instead, Judge Jensen summed up trial counsel’s request
to be relieved as one based on Pilato’s “. . . receipt of confidences”
that Pilato could not “divulge by virtue of attorney-client
privilege.” (1RT at 135) Judge Jensen deprived Shumate of his
constitutional right to his chosen attorney. See, Manfredi &
Levine v. Superior Court, 66 Cal.App.4th 1128, 1134-1136 (1998)
(counsel not relieved because Manfredi did not explain the nature
of the alleged conflict." A trial court need not "accept a sweeping
10

claim of conflict and 'rubber stamp' counsel's request to
withdraw." Aceves, at 592.
F.

No Irreparable Conflict Existed Between Pilato
and Shumate

The CCA finds that Pilato expressed, based on confidential
communications, that Shumate and Pilato had an irreparable
conflict of interest and the trial court found that if Pilato
proceeded Shumate’s trial would result in ineffective assistance of
counsel. (Apx. A at 12-13)
The CCA also finds the trial court did not abuse its
discretion by relieving Pilato because Shumate expressed
concerns that Pilato was working with the prosecutor against
Shumate and Pilato was conspiring with the district attorney.
(Apx. A at 12-13)
Shumate disagrees because the trial court committed
reversible error by granting Pilato’s untimely motion to
withdraw. The record does not show that "a breakdown in the
attorney-client relationship of such magnitude [existed] as to
jeopardize the defendant's right to effective assistance of counsel."
People v. Robles, 2 Cal.3 205, 215 (1970)

11

Shumate wanted Pilato to represent him; he did not want
the court to allow Pilato to withdraw. (1RT 119-120) When the
trial court asked Shumate if he wanted to keep Pilato, Shumate
responded “Yes, Your Honor.” (1RT 130) Shumate denied that he
and Pilato “[]ever had a falling out . . . We just haven't. This is
all coming out of nowhere. And I don't know if it's his
relationship with my dad, or something like that, but that
shouldn't affect my case. That's how I feel . . .” (1RT 142)
During Pilato’s request to withdraw, Pilato told the court
that Shumate and Shumate’s father’s comments would not affect
his [Pilato’s] ability to represent Shumate “zealously and to the
utmost to the oath that [Pilato] took . . .” Pilato told the trial
court, that he “would never roll over on a client.” (1RT 131)
The CCA finds that “Shumate's primary objection to Pilato
being discharged seems to have been his repeated insistence that
Pilato' s representation was ‘paid in full.’” (Apx. A at 13)
Shumate disagrees. The trial court needed to consider Shumate’s
claim that he fully paid Pilato because, unlike other cases where
the client did not pay the attorney, Shumate had paid his
attorney. People v. Prince, 268 Cal. App. 2d 398, 406-07 (1968)
12

(Client’s failure to pay justified withdrawal); Heple v. Kluge, 104
Cal.App.2d 461 (1951) (same).
G.

No Unreasonable Delay Existed

In upholding the trial court’s decision to allow Pilato to
withdraw, the CCA cites the “delay” in the proceedings. (Apx. A 810) No delay in the proceedings justified Judge Jensen’s granting
Pilato’s request to be relieved. On October 16, 2014, Judge King
denied Pilato’s motion to be relieved without prejudice because
otherwise, a defendant could decide when a case should go out to
trial. (1RT 109-110)
The CCA also overlooks that Shumate did not want to delay
his trial. Shumate vehemently objected to the continued delay of
his trial in violation of his 60-day speedy trial rights. (11RT 138)
Shumate wanted to go to trial immediately, wanted Pilato to
represent him, and objected to any delay of his trial. (1RT 139)
Shumate told the trial court that Pilato put his “defense, loved
ones, and traveling defense witnesses in a terrible position at the
worst possible time.” (1RT 139)
H.

Pilato Made an Untimely Request

The CCA overlooks that Pilato made his untimely motion
13

just before trial started. The prosecution answered ready and the
trial court had a pool of jurors ready for trial that afternoon. (1RT
134) Pilato planned to go to trial with Shumate and Pilato had
prepared his motions in limine. (1RT 153) Prince, 268 Cal.App.2d
at 406 (Motion to withdraw granted “. . . so long as it is timely
made and does not ‘prejudice[] the defendant, the prosecution, or
the smooth course of administration of justice.’"; Mandell v.
Superior Court, 67 Cal.App.3d 1, 4 (1977) (Trial court may deny
attorney's request to withdraw when withdrawal would result in
an injustice or cause undue delay; People v. Murphy, 35
Cal.App.3d 905, 921 (1973) (Withdrawal request made two days
before trial denied as untimely).
I.

Shumate’s Prior Marsden Motions Should Not
Have Been a Factor

The CCA finds that, before hiring Pilato, Shumate made
and the trial court heard and denied several Marsden motions.
(Apx. A 8, 9, 10) Shumate’s Marsden motions did not justify
granting Pilato’s request to withdraw. The trial court never
found such motions repetitive.
The trial court must have found the motions meritorious

14

because nothing compelled the court to hold more hearings on
repetitive and previously heard complaints. People v. Clark, 3
Cal.4th 41, 104 (1992) (Trial court need not hold a hearing where
defendant keeps repeating and renewing complaints that the
court has already heard.)
J.

Prejudice Resulted From the Trial Court’s
Erroneous Ruling

The CCA finds no prejudicial abuse of discretion because
the trial started a year and a half later and Shumate had “ample
time to secure other representation with whom he could build a
better working relationship.” (Apx. A 13) The CCA acknowledges
that “appellate review turns on the circumstances before the
court ‘at the time [of] the request [Citation].” Apx. A 14) When the
trial court ruled, the trial court did not know whether Shumate
had time to find another lawyer.
The right to select counsel of one's choice “has been
regarded as the root meaning of the constitutional guarantee.
[Citations] Where the right to be assisted by counsel of one's
choice is wrongly denied, therefore, it is unnecessary to conduct
an ineffectiveness or prejudice inquiry to establish a Sixth

15

Amendment violation. Deprivation of the right is ‘complete’ when
the defendant is erroneously prevented from being represented by
the lawyer he wants, regardless of the quality of the
representation he received. To argue otherwise is to confuse the
right to counsel of choice--which is the right to a particular lawyer
regardless of comparative effectiveness--with the right to effective
counsel--which imposes a baseline requirement of competence on
whatever lawyer is chosen or appointed.” United States v.
Gonzalez-Lopez, 548 U.S. at 147-48.
“Different attorneys will pursue different strategies with
regard to investigation and discovery, development of the theory
of defense, selection of the jury, presentation of the witnesses,
and style of witness examination and jury argument.” United
States v. Gonzalez-Lopez, 548 U.S. at 150.
“. . . [T]he right at stake here is the right to counsel of
choice, not the right to a fair trial; and that right was violated
because the deprivation of counsel was erroneous. No additional
showing of prejudice is required to make the violation ‘complete.’"
Gonzalez-Lopez, 548 U.S. at 146.

16

II.

The Trial Court Deprived Shumate of His Right
to Retained Counsel of Choice at His Motion for
New Trial And/or Sentencing

A.

Introduction

Shumate hired Attorney Arfa to represent him at his
motion for new trial and, if the motion was denied, at any
sentencing. On January 11, 2018, Ms. Arfa appeared in court.
Before calling the case, the trial court had an ex parte in camera
communication in his chambers with Shumate’s deputy alternate
public defender (DAPD), Heather Moorhead, to keep Moorhead on
the case. (14RT 3045; ART [1-11-18] 16.) The trial court excluded
Ms. Arfa and Shumate from the ex parte, in camera hearing.
Then, in open court, the trial court called Shumate’s case
and, after a brief hearing during which the trial court prohibited
Ms. Arfa from speaking, the trial court denied Shumate’s request
to have Ms. Arfa substitute in as his attorney. (14RT 3037) The
trial court found Shumate’s request “not timely, and [if granted],
would result in the disruption of the orderly process of justice.”
(14RT 3045)
The trial court never asked how much time Ms. Arfa would
need to prepare the motion for new trial. Instead, the trial court
17

inquired how much time Moorhead would need and then
continued the matter for more than two months so Moorhead
could prepare and file the motion for new trial. The prosecutor
waived her appearance for the proceeding. The trial court, in the
prosecutor’s stead, made prosecutorial objections and abruptly
walked off the bench. (14RT 3050-3051)
By denying Shumate’s request to substitute Ms. Arfa to
represent Shumate at his motion for new trial, the trial court
denied Shumate’s his Sixth Amendment constitutional right to
counsel of his choice. U.S. Const. amends. V, VI, XIV.
B.

The Sixth Amendment Guarantees a Criminal
Defendant the Right to Hire Counsel of His
Choice

The Sixth Amendment grants a defendant “a fair
opportunity to secure counsel of his own choice.” Powell v.
Alabama, 287 U.S. 45, 53 (1932); see United States v.
Gonzalez-Lopez, 548 U.S. 140, 148 (2006) (describing “these
myriad aspects of representation”).
The constitutional right at issue here is fundamental:
“[T]he Sixth Amendment guarantees a defendant the right to be
represented by an otherwise qualified attorney whom that
18

defendant can afford to hire.” Luis v. U.S., 578 U.S. __. 136 S. Ct.
at 1089 (2016); see Caplin & Drysdale, Chartered v. U.S., 491
U.S. 617, 624-625 (1989); People v. Courts, 37 Cal.3d 784, 789
(1985) (“The right to the effective assistance of counsel
"encompasses the right to retain counsel of one's own choosing.”)
C.

The Constitution Guarantees a Criminal
Defendant the Sixth Amendment Right to
Chosen Counsel at a Motion for New Trial

A criminal defendant is entitled to competent
representation at all times, including presentation of a new trial
motion or motion to withdraw a plea. People v. Smith, 6 Cal.4th
684, 695 (1993). ". . . . [J]ustice is expedited when the issue of
counsel's effectiveness can be resolved promptly at the trial level.
In those cases in which counsel was ineffective, this is best
determined early. Id.
Sentencing and motions for a new trial are critical stages
for purposes of the Sixth Amendment right to counsel. See
Robinson v. Ignacio, 360 F.3d 1044, 1057 (9th Cir. 2004);
Mansfield v. Borg, 881 F.2d 696, 697-98 (9th Cir. 1989).
A motion for a new trial is an integral part of the trial
itself, and "in a close case [a new trial] is of greater import to the
19

defendant than appellate review; in passing on such a motion, the
trial court, unlike an appellate court, may rough the evidence and
judge the credibility of witnesses." People v. Lopez, 1 Cal. App.3d
78, 83 (1969).
"[T]he motion for a new trial is the defendant's last
opportunity for an unconstrained review on the merits of the
evidence against him." Mansfield v. Borg, 881 F.2d at 699. Not
only can counsel ensure that a defendant's substantive rights are
protected, but counsel can also utilize his "understanding of legal
rules and his experience in presenting claims before a court,"
which is ordinarily required for an effective new trial motion. Id.
To be sure, "[t]he presence of trained counsel at this stage
insures that the most favorable arguments will be presented and
'that the accused's interests will be protected consistently with
our theory of criminal prosecution.'" Id. (quoting United States v.
Wade, 388 U.S. 218, 227 (1967).
D.

The January 11, 2018 Proceedings

When Shumate advised the trial court he had hired
counsel, the trial court required Shumate to give reasons why he
wanted Ms. Arfa to represent him. (14RT 3036)
20

When Shumate asked for Ms. Arfa to speak for him, the
trial court refused. (14RT 3036-(14RT 3037)
With his heart “ . . . beating ‘out of [his] chest . . . ’”
Shumate responded to the trial court’s inquiry and gave sincere
reasons why he wanted to hire Ms Arfa.

The trial court

ultimately found Shumate’s request to substitute counsel
untimely and would “. . . disrupt the orderly process of justice.”
E.

The Trial Court Deprived Shumate of His Sixth
Amendment Right to Counsel by Refusing to
Allow Shumate to Substitute His Privately
Hired Attorney for Post Conviction Proceedings

When denying the motion to substitute counsel, the trial
court based his decision on his concerns about timeliness and “ . .
. the disruption of the orderly process of justice.” (14RT 3045)
But because Shumate had already been convicted, granting
Shumate’s request would not have affected expeditious judicial
administration. Moorhead had not submitted a motion for new
trial, no hearing on the new trial motion had been set, and the
soonest new trial motion could be heard would be two months.
Shumate understands that, although previously, Shumate
had tried unsuccessfully to get a new attorney, such proceedings

21

had no effect on Shumate’s request to substitute Ms. Arfa, who
he had hired and was ready to proceed. Shumate’s prior requests
for counsel would not necessarily indicate that his request after
"the unsettling experience of trial" (Mansfield v. Borg, 881 F.2d at
701) was for an improper motive. See, People v. Ngaue, 229 Cal.
App. 3d 1115, 1125 (1991).
"'Expeditious judicial administration'" can force the
defendant's choice of counsel to yield but only if the court first
attempts "'an accommodation reasonable under the facts of the
particular case.'" Id.
The right to counsel of one's own choosing “' . . . "can
constitutionally be forced to yield only when it will result in
significant prejudice to the defendant himself or in a disruption of
the orderly processes of justice unreasonable under the
circumstances of the particular case." [Citations.] The right to
such counsel "must be carefully weighed against other values of
substantial importance, such as that seeking to ensure orderly
and expeditious judicial administration, with a view toward an
accommodation reasonable under the facts of the particular case."
[Citation.]'” Id.
22

The APD had the case from December 2, 2016, more than a
year. DAPD Ufland left the APD in June 16, 2017 and Moorhead
“graced [the court’s] presence on August 11, 2017.” (14RT 3043)
Moorhead had the case for five months and never prepared nor
submitted any motion for new trial. (14RT 3047)
When the trial judge learned Shumate had hired private
counsel, the trial judge and Moorhead had an ex parte hearing
about the case even though the trial court, who was to make
decisions about whether to substitute counsel, should not have
discussed the case with Moorhead ex parte. See People v. Salazar,
74 Cal.App.3d 875, 887 (1977) (Inquiry concerning a request to
substitute attorneys must be conducted in open court and in the
presence of the defendant.)
When deciding whether to substitute Ms. Arfa as
Shumate’s attorney, the trial court referenced the ex parte
hearing. When continuing the case to accommodate Moorhead,
the trial court admittedly based its decision on an ex parte
hearing. (14RT 3049) Based on the ex parte communications with
Moorhead, the trial judge had made up his mind to deny
Shumate’s request to substitute counsel and to force Shumate to
23

stay with Moorhead. The trial judge, by his comments, expressed
a preference for Moorhead, whom he knew for a long time.
(14RT 3043)
During the ex parte chambers hearing, Judge Jensen
stressed how he knew Moorhead. (ART [01-11-18] 3025)) (Italics
added.) A judge cannot base his disposition of a request for
substitution of counsel on his or her own confidence in the current
attorney and observations of that attorney's previous
demonstrations of courtroom skill. People v. Lewis, 20 Cal.3d
496, 498 (1978); People v. Munoz, 41 Cal.App.3d 62 (1974); People
v. Groce, 18 Cal.App.3d 292, 297 (1971).
Shumate hired a qualified, experienced attorney who was
ready and willing to proceeding with representing Shumate.
(14RT 3039-3040) The “expeditious judicial administration”
would not have been affected. Shumate did not speculate that he
will retain a particular attorney, nor was it a situation in which
Shumate expresses his intention to obtain the funds necessary to
retain an attorney. See People v. Courts, 37 Cal.3d at 791, fn. 3.
Although the trial court had been concerned about the time
a motion for new trial would take, the trial court never asked Ms.
24

Arfa how much time she would need to prepare the motion for
new trial. Even if Ms. Arfa needed a continuance to prepare the
motion for new trial, no prejudice would have resulted to either
the parties or the court.
“[A] continuance after the verdict will [not] substantially
interfere with the court's or the parties' schedules. Witnesses and
jurors will have been dismissed. The hearing on a post-trial
motion is generally a brief affair, lasting substantially less than a
day. Rescheduling such a hearing -- more likely than not -- will
not involve a significant disruption of court scheduling . . . “

Mansfield v. Borg, 881 F.2d at 700-701.
On January 11, 2018, the trial court was not prepared to
hear any motion for new trial. No new trial motion was pending
and Moorhead had not even prepared any motion for new trial.
Moorhead represented she needed more than two months to file
the motion for new trial. Yet the trial court insisted that Shumate
proceed with Moorhead instead of his chosen and hired private
counsel. This situation would not delay the orderly process of
justice. Shumate’s personal right to chosen counsel preempts a
trial court's apparent preference of defense counsel.
25

At the brief hearing, the trial court expressed concerns
about justice for the accuser. Judge Jensen overlooked that the
accusers waited decades before deciding to go to the police. One
accuser alleged the incident occurred in 1996. Another accuser
alleged the incident occurred in 2004.
The substitution of Shumate’s private counsel would not
have disrupted the orderly process of justice. The public
defender’s office had the case for over a year, and Moorhead had
the case for about five months. No motion for new trial had been
prepared and Moorhead still needed at least two months,
Shumate’s request to substitute qualified counsel would not have
been untimely. Even worse, after continuing the case more times,

Moorhead never even submitted a motion for new trial. By
denying Shumate’s request to substitute Ms. Arfa, the trial court
denied Shumate’s his Sixth Amendment constitutional right to
counsel of his choice.
On March 23, 2018, Moorhead requested the matter be
continued and the trial court again continued the matter.
Moorhead never filed a motion for new trial. (14RT 3107) The
trial court sentenced Shumate on April 27, 2018 and never heard
26

any motion for new trial. (14RT3107)
The trial court unfairly denied Shumate’s request to
substitute Ms. Arfa for a motion for new trial and/or sentencing,
again in violation of his Sixth Amendment constitutional right to
counsel of his choice. United States v. Gonzalez-Lopez, 548 U.S.
at 147-48.
F.

The CCA Relies on Inapposite Cases

The CCA relies on inapposite cases to uphold the trial
court’s decision to deny Shumate’s request to substitute his
privately retained attorney for a motion for new trial and
sentencing. The CCA relies on cases dealing with defendants who
wanted to discharge their attorney before trial. (Apx. A 16, 17)
The cases did not involve post conviction proceedings where the
defendant wanted to substitute private counsel for court
appointed counsel.
For example, the CCA cites People v. Keshishian, 162
Cal.App.4th 425, 428 (2008) for the notion that a state’s interest
in the criminal defendant’s right to counsel must be balanced
against the state’s right to proceed expeditiously and orderly.
(Apx. A 16) Keshishian differs because, in Keshishian, the
27

defendant made his request to discharge his retained attorney on
the day of trial in a case that had been pending for two and a half
years. Keshishian’s request would have required an indefinite
continuance and Keshishian had not identified nor retained new
counsel and scheduled witnesses would have been inconvenienced
by an indefinite delay. Id. at 429.
The CCA also relies on People v. Lara, 86 Cal. App. 4th 139,
153 (2001). Lara involved the defendant’s efforts to discharge his
retained attorney before trial. In contrast, Shumate wanted to
keep his lawyer. Lara reversed the conviction because the trial
court improperly treated Lara’s request to discharge his privately
retained counsel as a Marsden motion.
The CCA also relies on inapposite cases dealing with a
defendant’s request to relieve, as opposed to keep, his retained
counsel. Besides Keshishian and Lara, People v. Dowdell, 227
Cal.App.4th 1388, 1411 (2014) involved a defendant’s mid-trial
request to relieve his retained counsel. Dowdell held that “the
erroneous denial of a motion to substitute counsel constitutes
structural error and mandates reversal of the defendant's
conviction without requiring a showing of prejudice. [Citation]
28

However, we apply an abuse of discretion standard of review to a
trial court's denial of a motion to relieve retained counsel.
[Citations]” Id. (Italics added); see also People v. Verdugo, 50
Cal.4th at 263, 311 [Denial of motion to discharge counsel in the
middle of a lengthy hearing upheld where “considerable evidence
had already been introduced, the trial involved a lengthy
transcript, and replacing counsel would cause substantial delay.”)
People v. Trapps, 158 Cal.App.3d 265, 271 (1984) is
instructive. Trapps held that the trial court abused its discretion
and committed prejudicial error by denying Trapps’ motion for a
continuance to hire a private attorney because “[a] reasonable
continuance would not have disrupted the orderly administration
of justice. This was at sentencing, not a trial. The sentencing
which took place was not a lengthy proceeding and no witnesses
were called. It had already been delayed three months, . . . The
record does not reveal a good reason, let alone a compelling one,
why Trapps should not have been given a reasonable continuance
to retain counsel.” Id. at 271-272. (Italics added.)

29

G.

The Substitution of Counsel Would Not Have
Disrupted the Proceedings

The CCA finds, “The [trial] court found the substitution
request untimely, and that granting it ‘would be a disruption to
the orderly progress of this matter.’ Balancing Shumate's interest
in new retained counsel ‘against the disruption this request
would cause,’ the court denied the motion, finding it ‘would result
in a[n] undue delay of these proceedings.’ The court declined to
hear from Shumate's potential new counsel, who was present
(and who represents him before this court).”(Apx. A 16, 17)
The CCA relies on the trial court’s unsupported finding that
substituting Shumate’s court appointed counsel by new counsel
would unduly delay the proceedings. (Apx. A 16, 17) But the trial
court never explained how a post-trial request to substitute his
privately retained counsel would affect “the practical difficulties
of ‘assembling the witnesses, lawyers, and jurors at the same
place at the same time.’” (Marsden, at 983–984, quoting Sampley
v. Attorney General of North Carolina 786 F.2d 610, 613 (4th Cir.
1986).
Moorhead told the court during the ex parte proceeding

30

that she needed two more months and would not be ready for
sentencing on January 22, 2018. (SEALED ART [01-11-18] 3031)
The CCA finds that Judge Jensen properly denied
Shumate’s request to allow private counsel to substitute in for the
motion for new trial. The CCA finds that sentencing had been
continued for almost two years. (Apx. A 17) The CCA finds that
the trial court did not need ask the new attorney, who appeared
on January 11, 2018, if she would need a continuance because
“Shumate already established a pattern that was the antithesis of
timeliness and diligence.” (Apx. A 18)
Shumate did not delay his motion for new trial and
sentencing. On May 18, 2016, the trial court denied Shumate’s
first request for the trial transcripts on May 18, 2016. (1CT 264;
11CT 2937) Not until October 28, 2016 did the trial court order
the transcripts. (1CT 270-272) On February 14, 2017, a year after
Shumate’s conviction, the trial court ordered transcripts for the
alternate public defender. (1CT 275 )
On August 11, 2017, almost a year and a half after
Shumate’s conviction, Moorhead entered the case. (1CT 275)
After five months, Moorhead had prepared no new trial motion.
31

(14RT 3047) As late as January 11, 2018, APD Moorhead still had
not filed a motion for new trial. (1CT 18)
The CCA finds that Shumate made “dilatory efforts to seek
counsel.” (Apx. A 18) Shumate disagrees because Shumate hired
new counsel in November 2017 and when that proved
unsuccessful, he hired new counsel on March 23, 2018. On
January 11, 2018, the trial court granted APD Moorhead two
months to move for a new trial. (14RT 3049.) Moorhead filed no
motion for new trial and, on April 28, 2018, the trial court
sentenced Shumate to the maximum legal sentence. (1CT 282)
CONCLUSION
Shumate respectfully requests that certiorari be granted.
DATED: June 14, 2021
Respectfully submitted,
FAY ARFA, A LAW CORPORATION

/s Fay Arfa
___________________________
Fay Arfa, Attorney for Appellant

32

APPENDIX

Court of Appeal, Fourth Appellate District, Division Three
Kevin J. Lane, Clerk/Executive Officer
Electronically FILED on 12/8/2020 by Emad Dalati, Deputy Clerk

NOT TO BE PUBLISHED IN OFFICIAL REPORTS
California Rules of Court, rule 8.1115(a), prohibits courts and parties from citing or relying on opinions not certified for
publication or ordered published, except as specified by rule 8.1115(b). This opinion flas not been certified for publication
or ordered published for purposes of rule 8.1115.

IN THE COURT OF APPEAL OF THE STATE OF CALIFORNIA
FOURTH APPELLATE DISTRICT
DIVISION THREE

THE PEOPLE,
G056263
Plaintiff and Respondent,
(Super. Ct. No. 12HF2093)
v.

OPINION
BRANDEN EDWARD SHUMATE,
Defendant and Appellant.

Appeal from a judgment of the Superior Court of Orange County, Lance
Jensen, Judge. Affirmed.
Fay Arfa for Defendant and Appellant.
Xavier Becerra, Attorney General, Lance E. Winters, Chief Assistant
Attorney General, Julie L. Garland, Assistant Attorney General, A. Natasha Cortina and
Annie Featherman Fraser, Deputy Attorneys General, for Plaintiff and Respondent.

*

*

*

APPENDIX A

0001

A jury convicted Branden Edward Shumate of three counts of lewd acts
1

against a child under the age of 14 (Pen. Code, § 288, subd. (a)), and found true the
penalty enhancement allegation that Shumate committed the crimes against more than
one victim(§ 667.61, subds. (b), (e)(4)). The charges were brought against Shumate in
July 2012, he was convicted in February 2016, and in April 2018 the trial court sentenced
him to a term of 45 years to life in prison. Shumate raises several contentions regarding
his legal representation at trial and at sentencing. Those issues include whether the trial
court properly granted his third retained attorney's request to be relieved as counsel
before trial and whether the court later properly denied his request, prior to sentencing, to
replace his appointed counsel with a retained attorney.
Shumate also raises a host of other contentions. He challenges the
sufficiency of the evidence to support the jury's conclusion one of his victims was less
than 14 years old; he challenges a jury instruction (CALCRIM No. 207); and he contends
the court improperly admitted transcripts of a covert phone calls and erred in admitting
evidence of the victims' fresh complaints against him. At his request, we review the trial
court's in camera handling of his Pitchess motion, and we assess his claim that his
sentence is so disproportional to his culpability that it violates constitutional norms.
None of Shumate' s contentions has merit. We therefore affirm the judgment.

FACTUAL BACKGROUND
We set out the relevant factual background concerning Shumate' s offenses
against each victim, and then in our discussion we review the procedural background
pertaining to his respective claims, as necessary.

All further statutory references are to the Penal Code, unless otherwise
specified.

2

APPENDIX A

0002

• Doe 1

When Doe I was six or seven years old, her mother dropped her off at the
2

church in Lake Forest where Shumate's father was a pastor. Shumate, a young adult at
the time, was going to take Doe to a water park with his cousins, who were near the same
age as Doe. Doe and her mother had developed a close relationship with the Shumate
family. Doe thought of Shumate' s parents as her aunt and uncle, and of Shumate as an
older cousin. She sometimes stayed at the Shumate home on weekends.
On the day Doe was dropped off at church, Shumate' s cousins never
showed up. She fell asleep on a futon in a back room where musical instruments were
stored. She wore her bathing suit with a shirt over it, and either shorts or a skirt-type pair
of shorts.
Doe woke up to Shumate' s fingers inside of her vagina. She "froze" and
pretended to be asleep. It was uncomfortable and she was frightened. Shumate stopped,
and after a few minutes, she pretended to wake up. Shumate questioned whether she had
really been sleeping, and she said she was. A short time later, they went to an Arby's to
get lunch. Doe's mother picked her up a few hours later. Thereafter, the families
continued to spend time together, but Doe tried to avoid being alone with Shumate.
When she was 12 or 13 years old in "2003/2004,'' Doe and her mother and
stepfather moved from Dana Point to San Juan Capistrano. They rented a truck and
several family friends, including a man named Mike Fielder, helped load it up. Doe
knew Fielder and was comfortable around him. Doe's home in Dana Point was in the
same condominium complex where Shumate' s parents lived. Toward the end of the
move, Shumate and his father stopped by the Does' new residence. Shumate's father left,
but Shumate stayed to help return the rental truck.
2

For ease of reference, we refer to Doe I as Doe in this section, until
reaching the facts concerning Doe 2.

3

APPENDIX A

0003

Later that night, Fielder drove the rental truck to return it in Santa Ana,
while Shumate and Doe followed behind him in another car. Doe testified she "didn't
think that anything bad could happen" because "I was older,'' but, after following Fielder
for awhile, Shumate turned off the freeway and parked in a dark industrial area. He took
her cell phone from where it rested on the seat beside her and moved it to the side pocket
of the driver's side door. He unbuttoned his pants, removed his penis, and made Doe
orally copulate him, while she attempted to resist.
Meanwhile, Fielder arrived at the truck rental location and realized
Shumate was no longer behind him, though Shumate had followed him to a gas station
near the rental facility. Fielder's numerous calls to Doe's cell phone went unanswered.
As Doe's phone continued to ring, Shumate lost his erection. Shumate then unbuttoned
Doe's pants and digitally penetrated her. Doe was upset and crying.
Shumate and Doe arrived at the rental location about an hour after Fielder.
The drive from where they had been parked to the rental facility was just "a couple of
minutes,'' according to Doe. On the way there, Shumate told Doe to "calm down and act
normal." When Fielder asked why Doe had not answered her phone, she told him she
had not heard it ring. Shumate told Fielder they had gotten lost and gone to a different
rental location, despite Fielder's directions.
On the return drive, Doe sat in the back seat while Fielder sat in the front
with Shumate. Fielder testified that Doe, who was usually bubbly and "hyper,'' sat in a
comer and was uncharacteristically silent. They dropped Shumate off at his father's
home in Dana Point.
Several years later, when Doe was 17 years old, she moved in with her
brother and his girlfriend. Doe became close with the girlfriend and confided in her
about Shumate's abuse. The girlfriend was a receptionist for several lawyers, including
Kevin McGuire, a personal injury attorney. Doe heeded the girlfriend's advice to tell

4

APPENDIX A

0004

McGuire what had happened; he advised her to contact the police. McGuire went with
Doe to the sheriffs department in Riverside to report the abuse in September 2009.
In October 2009, when she was 18 years old, Doe made covert calls to
Shumate from the Orange County Sheriffs Department. The covert calls were played for
the jury. During one call, without prompting, Shumate admitted he felt "bad in a way"
because it "[s]eems like I did some stuff that I shouldn't have done." When Doe
pretended she was puzzled, he said, "you know pretty obvious." Doe asked whether he
was talking about "what happened" in the car, "me sucking your dick?" and he
responded, "Kind of yeah."
• Doe 2
When she was around six years old in 2006, Doe 2' s family lived in
Hawaii, where they met Shumate, his wife, and his two young daughters. The two
families became close, spent weekends and holidays together, and Doe 2 and her brothers
referred to Shumate as "Uncle Branden."
In 2009, Doe 2' s family moved to the Central Valley in California, her
parents separated, and her father moved to Alaska. In July of that year, Shumate and his
family visited and stayed with Doe 2' s family. Doe 2 remembered later that he spoke to
her about sex during the visit. Shortly thereafter the Shumates moved to Dana Point and,
in December 2010, Doe 2's mother moved into the Shumate's apartment with her
children.
Shumate often took the children to the community pool while the mothers
went to the gym. On one of those nights, Doe 2 was alone in the bathroom wearing a
towel. Shumate entered, sat Doe 2 down on the toilet, and spread her legs open. He
touched her vagina with his tongue. He told her not to tell anyone or she would get in
trouble.
Her mother noticed that while living with the Shumates, Doe 2' s demeanor
changed; she became angry, upset, and temperamental. On one occasion in late January
5

APPENDIX A

0005

or early February, Doe 2 refused to enter the apartment, screaming that she would not go
back in. Living in the home became chaotic and tense, exacerbated by Shumate' s
insistence that the families do all their activities together. In March 2011, Doe 2's
mother moved with her children to Alaska, where her parents lived.
Doe 2' s mother noticed Doe 2 exhibiting sexualized behavior. Doe 2 spent
some time in an in-patient facility to address her aggression and anger. Doe 2' s mother
had been raped and molested by an uncle at a young age. She explained this to Doe 2,
and asked if anyone had touched her; Doe 2 initially denied it. Then Doe 2 disclosed that
"Uncle Branden" touched her on her vagina. When her mother asked what he had used
to touch her, she pointed to her mouth.
Her mother immediately called the Anchorage Police Department, and in an
interview a few weeks later, Doe 2 told detectives that Shumate gave her a "secret
touch." She explained how it happened in the bathroom and that Shumate threatened she
would get in trouble if she told anyone.
In March 2012, Doe 2' s mother made a series of covert calls to Shumate
3

from the Anchorage Police Department. The calls were played for the jury. During the
calls, mother exaggerated Doe 2' s condition, telling Shumate that Doe 2 had been "in and
out" of a hospital for six months, and she falsely claimed Doe 2 was suicidal and
medicated. She also said she found a journal in which Doe 2 wrote down what Shumate
had done to her. Shumate denied committing any abuse.
Doe 2' s mother emphasized her daughter needed his apology so she could
begin to heal, but Shumate accused mother of trying to set him up and "get him busted."
Nevertheless, he admitted: "[I]f that is really in her journal then I'm already toast, I'm
already fuckin' going' to jail man, and that, that's exactly what's gonna happen then."
3

For ease of reference throughout this section and in the discussion section
below, we occasionally refer to Doe 2's mother simply as "mother."

6

APPENDIX A

0006

Shumate asked if the call was being recorded, had mother swear "on a
Bible" that it was not, and wanted assurance that she was alone. He pleaded, "You're not
gonna let them do anything to me,'' and mother said no. He then told her he would tell
her what had happened.
Shumate claimed Doe 2 and his daughters were in the bathtub together, and
he moved in and out of the bathroom getting things ready, including handing Doe 2 a
towel. When Doe 2 was on the toilet drying herself off, he admitted he bent down on his
knee, "kissed the inside of her leg," then stood up quickly and immediately apologized.
He denied putting his tongue on Doe 2' s body, stating it had all happened very quickly.
When mother asked if Shumate licked Doe 2' s vagina, Shumate admitted he had and
said, "God yes, I'm sorry." He said it had been spontaneous and only happened that one
time.

DISCUSSION
1.

Right to Counsel
Shumate raises several issues regarding his right to counsel. The first issue

is whether before trial the court properly relieved the third private attorney Shumate hired
to represent him after counsel advised the court that an irreparable conflict had arisen
with Shumate. The second issue is whether, more than two years after his conviction, the
trial court properly denied Shumate' s request to substitute another newly hired attorney
for his appointed counsel. The third issue is whether, in conducting a progress hearing
two weeks before the scheduled sentencing hearing, at which the prosecutor waived her
appearance, the trial court violated Shumate' s right to be present. Related to this issue is
whether his appointed attorney rendered ineffective assistance of counsel by proceeding
with the progress hearing in his absence. Before turning to these issues, and to put them
into their proper context, we briefly set out Shumate' s history of being represented by

7

APPENDIX A

0007

retained counsel, self-representation, and appointed counsel over the nearly six years that
elapsed between the filing of the complaint in July 2012 and his sentencing in April 2018.
A.

Background Proceedings Related to Right to Counsel

On July 20, 2012, the prosecutor filed the complaint alleging Shumate
committed three counts of lewd acts against the two Doe victims. His arraignment was
continued several times, including on November 9, 2012, after which he retained private
counsel, James Sweeney. Shumate was subsequently arraigned on November 16, 2012,
and pleaded not guilty to the complaint. In December 2012, Shumate retained new
private counsel, Jeremy Goldman, who substituted in for Sweeney.
In June 2013, almost a year after charges had been filed, and after
numerous court appearances, the court granted Shumate' s request to relieve Goldman,
and appointed the Public Defender's office to represent him. The next month, in
July 2013, Shumate filed a Marsden motion to replace his appointed counsel, which the
court denied. (People v. Marsden (1970) 2 Cal.3d 118.) Shumate indicated he thought
he wanted to represent himself, but sought an opportunity to consult with family
members before making that decision; in response the court continued the matter.
In October 2013, after both sides answered ready for the preliminary
hearing, Shumate made another Marsden motion, which the court denied after a hearing.
Shumate then moved to represent himself; the court continued the preliminary hearing to
hold a Faretta hearing. (Faretta v. California (1975) 422 U.S. 806.) The day of that
hearing, Shumate appeared with retained counsel, Louis Pilato, who substituted in as
Shumate's attorney as of that date, October 29, 2013.
Nearly nine months later-two years after the filing of the complaint-on
July 24, 2014, after numerous continuances and court appearances, the court conducted
the preliminary hearing, and Shumate was held to answer. In August 2014, Shumate
pleaded not guilty to the counts alleged in the information and trial was set for

8

APPENDIX A

0008

September 29, 2014. After another series of continuances, that trial finally commenced
in January 2016.
Prior to trial, in September 2014, Shumate's retained counsel, Pilato, filed a
motion to dismiss the information. (§ 995.) At the hearing on that motion in
October 2014, Shumate interrupted the court to state that he was filing a claim of
"ineffective assistance of counsel at [the] preliminary hearing." The court directed
Shumate to speak to his attorney to make his legal arguments, which Shumate refused to
do, suggesting he was entitled to something akin to a Marsden hearing. The court
explained that the Marsden procedure only applied to appointed counsel but that the court
would appoint counsel if Shumate could not afford an attorney. The court also advised
Shumate that, if it would not disrupt the orderly administration of justice, Shumate could
change retained attorneys by filing a substitution motion.
Shumate again interrupted the proceedings on the section 995 motion,
asking to speak to his father about retaining new counsel, which the court explained was
not timely in the middle of the hearing. Shumate then consulted with his attorney, who
proceeded to argue for dismissal of the charges under section 995. The court denied that
motion.
A few days later, in early October 2014, Pilato filed a motion to continue
the trial because he was engaged in another trial in Long Beach. Pilato also indicated at
the hearing on the motion that a conflict might exist regarding his continued
representation. Shumate had told him "this morning" that he had a motion he wanted to
file and had tried to do so to assert ineffective assistance of counsel against Pilato.
Apparently, the court clerks had not accepted the motion for filing. The court confirmed
it would not accept written motions from a defendant represented by counsel.
After interjections by Shumate, the court recessed, and directed the bailiff
to remove Shumate from the courtroom. While Shumate remained in a holding cell, the
court later recalled the case, explaining that Shumate was "not obeying the court or
9

APPENDIX A

0009

adhering to what the court was telling him which [was that] I wasn't going to entertain
any motions or comments from him that did not go through counsel." The court
apparently granted Pilato' s requested continuance because the next date in the record is
the October 15, 2014 trial date.
On the trial date, the court granted Pilato' s request to withdraw as
Shumate' s attorney on grounds that an irreparable conflict had arisen between client and
attorney. The court continued the case to the following day so Shumate could decide
whether he would retain counsel or seek appointed counsel.
At the hearing on October 16, Shumate objected to appointed counsel from
the Public Defender's Office on grounds of conflict, presumably based on his
dissatisfaction with having been previously represented by the office; the court then
appointed the Alternate Public Defender's Office. Shumate objected, stating he wanted
to represent himself; the matter was trailed to the next day. The next day, Shumate
affirmed he wanted to represent himself, and the court granted his request.
On October 24, 2014, Shumate requested and was granted an investigator.
Days later, Shumate sought to relieve the investigator and replace him. The court
conducted what it referred to as a "quasi-Marsden" hearing on Shumate's request, which
the court learned was based on Shumate's desire to have the state pay for a privatelyretained investigator. The court denied the request.
On the rescheduled trial date, December 1, 2014, Shumate requested and
was granted a continuance to March 11, 2015. In January 2015, Shumate again sought to
have his investigator relieved and another one appointed, which the court denied. On
January 30, 2015, Shumate retained a private investigator; the court then relieved the
appointed investigator. Shumate requested that the trial date be continued, which the
court granted, resetting it for May 11, 2015.
When the May trial date arrived, the court granted Shumate' s request to
substitute in Jovan Blacknell as his retained counsel. The court denied Shumate' s request
10

APPENDIX A

00010

that Shumate be considered his own cocounsel. The trial court set another trial date in
August 2015, which was subsequently continued, with Blacknell remaining as Shumate's
retained counsel.
Shumate' s trial finally began on January 19, 2016, three and a half years
after the complaint was filed. Shumate was convicted on all three counts on February 8,
2016. The sentencing hearing was initially set for March 25, 2016. Shumate was not
actually sentenced until April 27, 2018, more than two years after his conviction.
B.

Relieving Pilato as Trial Counsel

Shumate contends the trial court erred in granting Pilato' s request to be
relieved as his attorney in October 2014. We find no error.
Shumate casts his claim as one impacting his constitutional right to the
assistance of counsel, including retained counsel of his choice and the right to waive a
conflict of interest involving the attorney. Under the Sixth Amendment to the United
States Constitution, a defendant has the right to select and pay for legal representation of
his or her choosing, with few restrictions. (Powell v. Alabama (1932) 287 U.S. 45, 53.)
Our high court has similarly held under the state analogue (Cal. Const., art. I, § 15) that a
defendant's right to retain chosen counsel "can constitutionally be forced to yield only
when it will result in significant prejudice to the defendant himself or in a disruption of
the orderly processes of justice umeasonable under the circumstances of the particular
case." (People v. Crovedi (1966) 65 Cal.2d 199, 208 (Crovedi).)
Shumate asserts that ""'California makes a defendant the master of his fate
and allows him to proceed uninterrupted, with the exceptions of flagrant circumstances of
attorney misconduct or incompetence [citation], with counsel of his choice if the parties
involved in the conflict properly waive any potential or actual conflicts.""' (Quoting
People v. Jones (2004) 33 Cal.4th 234, 252.) In advancing this position, Shumate
understates the fact that the attorney properly plays a role in determining whether there is
a conflict that results in a breakdown of the client-attorney relationship.
11

APPENDIX A

00011

That relationship is crucial to effective representation. "' [T]he
attorney-client relationship ... involves not just the casual assistance of a member of the
bar, but an intimate process of consultation and planning which culminates in a state of
trust and confidence between the client and his attorney. This is particularly essential, of
course, when the attorney is defending the client's life or liberty."' (People v. Ortiz
(1990) 51 Cal.3d 975, 983.)
Granting or denying an attorney's request to withdraw from representing a
client, including in a criminal matter, rests within the trial court's sound discretion.
(E.g., People v. Cohen (1976) 59 Cal.App.3d 241, 249 (Cohen).) An "apparent total
breakdown in the relationship between [the] defendant and her [or his] attorney
provide[ s] adequate grounds for the trial court to relieve that attorney." (Ibid)
The trial court here found that "a conflict of interest does exist and [to]
allow this case to proceed with current counsel would, in the court's opinion, result in
defendant getting [a] trial [tainted] with ineffectiveness of counsel." While the court
phrased its ruling in terms of "a conflict of interest,'' it is apparent to us that this was not
the sort of conflict Shumate could waive, such as one involving a conflict between his
interests and those of another client or former client of Pilato' s. (See, e.g., People v.
Mroczko (1983) 35 Cal.3d 86, 112.)

Instead, this conflict arose out of Pilato and Shumate's attorney-client
relationship. Pilato explained to the court that his reasons for seeking to withdraw
included ( 1) Shumate' s repeated allegations, evident in outbursts before the court, that
Pilato provided ineffective assistance of counsel; (2) Shumate's belief that Pilato was
working with the District Attorney's Office against Shumate's interests, a belief
apparently encouraged by Shumate's father; and (3) Shumate's stated belief that Pilato
was conspiring with the trial court to violate his rights. Pilato also told the court that
there were other conflicts he could not divulge because they involved confidential
communications. Pilato told the court, "[W]e have reached the point of a definite and
12

APPENDIX A

00012

irreparable conflict of interest where there is no active relationship that could go on
between the individual and myself."
While Shumate expressed surprise at the alleged breakdown in relations,
stating to the court that it was "the first [he had] heard of' it, the court "was not required
to accept defendant's version of the events." (Cohen, supra, 59 Cal.App.3d at p. 249.)
"[C]ounsel 'is in the best position professionally and ethically to determine when a
conflict of interest exists or will probably develop."' (Leversen v. Superior Court (1983)
34 Cal.3d 530, 537; accord, Holloway v. Arkansas (1978) 435 U.S. 475, 485-486.)
Shumate has shown no abuse of discretion in the court allowing Pilato to withdraw.
In any event, we fail to see how any possible error in the decision was
prejudicial. The trial did not take place for nearly another year and a half, affording
Shumate ample time to secure other representation with whom he could build a better
working relationship. He retained other private counsel at least twice over the next four
years before he was sentenced. Shumate's primary objection to Pilato being discharged
seems to have been his repeated insistence that Pilato' s representation was "paid in full"
through trial. But a criminal courtroom is no place to litigate private, contractual fee
relationships when the client and attorney cannot maintain a working relationship through
the proceedings that are underway. Shumate cites no authority that the criminal court is
the guarantor of any fee arrangement with retained counsel, nor that it is responsible for
adjustments or declarations of breach on one side or the other, and we are not aware of
any such precedent.
For all these reasons, Shumate' s challenge to Pilato' s discharge as grounds
to reverse his eventual criminal conviction under different representation has no merit.
C.

New Counsel for Sentencing Hearing

Shumate contends the trial court violated his right to retained counsel by
denying his request-two years after he had been convicted-to substitute new private
counsel for appointed counsel before his sentencing hearing. "[W]e apply an abuse of
13

APPENDIX A

00013

discretion standard of review to a trial court's denial of a motion to relieve [or substitute]
retained counsel." (People v. Dowdell (2014) 227 Cal.App.4th 1388, 1411 (Dowdell).)
Because our review turns on the circumstances before the court "at the time [of] the
request" (Crovedi, supra, 65 Cal.2d at p. 207), we briefly set out the relevant background.
L

Postconviction Proceedings

Following Shumate's conviction in February 2016, his sentencing hearing
was set for the end of March 2016, then continued into May and again into June of 2016,
and then to September 30, 2016. All of the continuances were at Shumate's request. In
September, Shumate commenced efforts to relieve Blacknell, his retained trial attorney,
by filing papers on his own behalf stating a conflict had arisen. Then, after sentencing
was again continued into October 2016 because Blacknell was engaged in a trial,
Blacknell filed a motion to be relieved as counsel.
On October 28, 2016, the rescheduled sentencing date, the trial court
relieved Blacknell and appointed first the Public Defender to represent Shumate, and then
the Alternate Defender after the Public Defender declared a conflict. Further hearings
were then set for December 2, 2016; that hearing was later continued to June 16, 2017 at
Shumate' s request.
On the June 16, 2017 hearing date, Shumate moved to relieve the entire
Alternate Defender's Office. The court held a Marsden hearing and denied Shumate's
request. Thereafter, a hearing on a new trial motion Shumate intended to file was set for
November 13, 2017. Shumate had appeared at an August sentencing hearing with a new
attorney from the Alternate Defender's Office, Heather Moorhead. The court continued
the August sentencing hearing to coincide with the November 13 new trial motion date.
On November 13, a newly retained attorney, Cory Parker, appeared and
requested to substitute in as Shumate' s counsel. The court granted the request after
confirming that Parker had been retained and paid. Shumate then began to interrupt the

14

APPENDIX A

00014

proceedings with screaming outbursts; he was removed from the courtroom when he did
not heed the court's admonishments.
After a break, Shumate returned to the courtroom which allowed the court
to obtain a time waiver to a new sentencing date on January 22, 2018. Shumate
apparently had not previously met Parker, and during an exchange with the court, Parker
indicated that Shumate was not listening. The court then recessed to allow Shumate and
Parker to discuss the case, trailing the hearing to the afternoon; before the recess,
Shumate again became disruptive.
Upon his return in the afternoon, Shumate continued to disrupt the
proceedings. When the court tried to take Shumate's time waiver for the continuance, he
and Parker stated they agreed Parker would no longer represent him. The court relieved
Parker and reappointed the Alternate Defender.
At the same November 13, 2017 hearing, the court set a progress review
hearing-which would enable it to monitor counsel's progress on the new trial motionfor early January, to precede the January 22, 2018 sentencing date. The court advised
counsel that "should she need assistance getting the materials she requires for the
motion,'' she should notify the court. Shumate requested a Marsden hearing to obtain
new appointed counsel, which the court heard and denied. The court then accepted
Shumate' s time waiver.
At the progress review hearing on January 11, 2018, the prosecutor waived
her appearance and Shumate also did not appear initially, remaining in a holding cell
outside the courtroom. The court inquired regarding defense counsel's progress in
preparing for the upcoming hearings, including whether she had been able to obtain
transcripts and other materials. She affirmed she had, though it had been difficult given
the number of attorneys preceding her on the case. A court reporter transcribed the
discussion which the court conducted in chambers.

15

APPENDIX A

00015

Following this colloquy, the court proceeded with the progress hearing in
open court, where Shumate appeared and requested to substitute new retained counsel,
who was present. The court reviewed the history of the proceedings, including numerous
continuances "since 2016 and that i[t] is now almost 2 years since the defendant was
found guilty."
Shumate stated he wanted "new counsel for several reasons,'' which he
stated included his fear-which he did not explain-"that he may suffer retaliation at the
jail, that he does not trust the alternate defenders office and that his new attorney is
experienced[,] with a great reputation."
The court found the substitution request untimely, and that granting it
"would be a disruption to the orderly progress of this matter." Balancing Shumate' s
interest in new retained counsel "against the disruption this request would cause,'' the
court denied the motion, finding that it "would result in a[ n] undue delay of these
proceedings." As a result, the court declined to hear from Shumate's potential new
counsel, who was present (and who represents him before this court). During oral
argument, counsel described this hearing as "brutal" and "extremely unfair."
11.

Applicable Law & Analysis

A defendant's right to due process and to effective assistance of counsel
includes the right to retain counsel to defend against criminal charges. (People v. Courts
(1985) 37 Cal.3d 784, 789.) But those rights are not absolute. '"[T]he "fair opportunity"
to secure counsel of choice provided by the Sixth Amendment "is necessarily [limited by]
the countervailing state interest against which the [S ]ixth [A ]mendment right provides
explicit protection: the interest in proceeding with prosecutions on an orderly and
expeditious basis, taking into account the practical difficulties of 'assembling the
witnesses, lawyers, and jurors at the same place at the same time."" [Citation.]" (People
v. Keshishian (2008) 162 Cal.App.4th 425, 428 (Keshishian).)

16

APPENDIX A

00016

These same concerns apply to sentencing, including victims' rights to
"expeditious enforcement" of the law and "a prompt and final conclusion of the case."
(Cal. Const., art. I,§ 28, subd. (a)(2), (b)(9).) '""The right to counsel cannot mean that a
defendant may continually delay his day of judgment by discharging prior counsel.""'

(Keshishian, supra, 162 Cal.App.4th at p. 429.) Thus: "A court faced with a request to
substitute retained counsel must balance the defendant's interest in new counsel against
the disruption, if any, flowing from the substitution. [Citations.]" (People v. Lara (2001)
86 Cal.App.4th 139, 153.)
The defendant bears the burden to establish an abuse of discretion in the
trial court's ruling. (Dowdell, supra, 227 Cal.App.4th at p. 1411.) If the defendant meets
his burden, the erroneous deprivation of chosen counsel is structural error. (United States

v. Gonzalez-Lopez (2006) 548 U.S. 140, 149-150; People v. Ortiz (1990) 51Cal.3d975,
988.) Like the trial court, we must consider "the totality of the circumstances." (People

v. Maciel (2013) 57 Cal.4th 482, 513.)
During the two years between Shumate' s conviction and his sentencing, the
trial court made repeated and diligent efforts to ensure Shumate had the assistance of
retained or appointed counsel. The court extended the sentencing hearing for six months
from March 2016 to September 2016 so that Shumate could work with his retained trial
counsel to potentially file a new trial motion and to prepare for sentencing. When
Shumate proved unable to work with Blacknell, the court gave Shumate three months to
work with his initial deputy alternate defender, and then another six months, only to see
Shumate file a Marsden petition in June 2017. The court denied the Marsden petition,
one of many that followed, because it found he was receiving effective representation.
Another five months passed as the court repeatedly granted Shumate further
continuances, only to have him appear at the November 13, 2017 hearing seeking to
substitute newly retained counsel. The court observed at that time, and we agree, that the
matter had already been so long delayed that the court would have been within its
17

APPENDIX A

00017

discretion to deny the substitution motion. Nevertheless, it granted the motion, only to
see Shumate unable to develop a working relationship with his new counsel for even one
day. The court's minutes predating this period also showed that Shumate's habit of
changing horses-or at least jockeys-in midstream was disrupting the proceedings
because each new attorney had to obtain already lengthy transcripts, documents, and
other materials piecemeal from Shumate and from multiple prior counsel.
Two more months passed after Shumate' s aborted engagement of Parker in
November 2017. Shumate demonstrated he had the means, with family assistance, to hire
private counsel, but when that relationship failed-marked by Shumate' s disruptive
courtroom outbursts and inability to work with his counsel of choice-he gave the trial
court no assurance he would seek to retain replacement counsel. On this basis alone,
where Shumate fails to demonstrate any reasonable diligence in obtaining substitute
counsel before January 2018, the trial court's ruling was correct. The defendant may not
"abuse the patience of the court through dilatory efforts to seek counsel." (Crovedi,
supra, 65 Cal.2d at p. 208.)

Shumate argues that the court erred in failing to inquire whether the
attorney who appeared with him in January would need a continuance. But some
questions need not be asked. Shumate already had established a pattern that was the
antithesis of timeliness and diligence. Each change of counsel was followed by a period
of months, and sometimes more than a year, before Shumate would again seek to replace
counsel. Alternate defender Moorhead indicated during her meeting with the court that
she would need an additional two months to prepare the case and, indeed, the sentencing
hearing was tentatively continued to April 2018. The trial court could reasonably
conclude this delay would only have been longer-and likely much longer-with the
substitution of another new lawyer. With two years already having elapsed, the court
reasonably concluded Shumate's request was "'not timely"' and would "'result in

18

APPENDIX A

00018

"disruption of the orderly processes of justice.""' (People v. Verdugo (2010) 50 Cal.4th
263, 311.) There was no abuse of discretion in denying the substitution request.
D.

Court Colloquy in Shumate 's Absence

Shumate argues the court's colloquy with his appointed counsel in his
absence at the progress hearing violated his right to be present for the proceedings. In the
alternative, he argues that his attorney rendered ineffective assistance of counsel by
permitting the in chambers discussion to occur without him. Neither claim warrants
reversal.
A criminal defendant has the right to be present at his trial under the Sixth
and Fourteenth Amendments to the federal Constitution and under article I, section 15, of
the California Constitution. (People v. Howze (2001) 85 Cal.App.4th 1380, 1393.) The
Penal Code also specifies that right. (Ibid; §§ 977, 1043.) The right to be personally
present, however, does not extend to every court proceeding that takes place. (People v.

Cole (2004) 33 Cal.4th 1158, 1231.)
Under the Sixth Amendment's confrontation clause, a criminal "'defendant
does not have a right to be personally present at a particular proceeding unless his
appearance is necessary to prevent "interference with [his] opportunity for effective
cross-examination." [Citation.]"' (People v. Cole, supra, at p. 1231.) "'Similarly, under
the Fourteenth Amendment's due process clause, a criminal defendant does not have a
right to be present at a particular proceeding unless he finds himself at a "stage ... that is
critical to [the] outcome" and "his presence would contribute to the fairness of the
procedure."' [Citations]." (Ibid)
Under article I, section 15, of the California Constitution, a defendant has a
"right to be personally present at critical proceedings,'' but does not have a right "to be
present at discussions on questions of law outside the jury's presence or at proceedings
where the defendant's presence does not have a reasonably substantial relation to the

19

APPENDIX A

00019

fullness of his opportunity to defend against the charge." (People v. Perez (2018)
4 Cal.5th 421, 438 (Perez), internal quotations & citations omitted.)
If a defendant should have been present, but was not, his absence does not

require per se reversal; it is not structural error. (Perez, supra, 4 Cal.5th at p. 438.) The
defendant bears the burden to establish his absence prejudiced his defense or denied him
a fair trial. (People v. Jennings (2010) 50 Cal.4th 616, 682.) Similarly, to prevail on a
claim for ineffective assistance of counsel, the defendant must demonstrate prejudice.
(Strickland v. Washington (1984) 466 U.S. 668, 687-688.) The reviewing court need not

delve into whether the attorney's performance was deficient if the defendant fails to
demonstrate prejudice. (Id at p. 687.)
All of these rules are applicable here. Shumate shows no prejudice
stemming from his absence at the beginning of the progress review hearing, a meeting
that the clerk's transcript reflects was less than 15 minutes. Shumate requested and was
granted a copy of the sealed reporter's transcript of the discussion and he does not argue
he was prejudiced, nor do we discern any prejudice. The court and counsel reviewed
counsel's progress in obtaining and reviewing the lengthy record and materials from past
counsel, and counsel's progress in preparing for the hearing. As the court had previously
observed, retrieving and reviewing the growing body of documents was a challenge. As
evidenced by the reporter's transcript, nothing the court or counsel discussed was
anything that they could not have discussed in open court. There was no prejudice and
no error.
2.

Sufficiency of the Evidence

Shumate challenges the sufficiency of the evidence to support the jury's
conclusion Doe 1 was under 14 years old the second time he committed lewd acts against
her, as required for count 2. (§ 288, subd. (a).) The evidence supports the jury's verdict.
"'A reviewing court faced with ... a claim [of insufficient evidence]
determines "whether, after viewing the evidence in the light most favorable to the
20

APPENDIX A

00020

prosecution, any rational trier of fact could have found the essential elements of the crime
beyond a reasonable doubt." [Citations.] We examine the record to determine "whether
it shows evidence that is reasonable, credible and of solid value from which a rational
trier of fact could find the defendant guilty beyond a reasonable doubt." [Citation.]
Further, "the appellate court presumes in support of the judgment the existence of every
fact the trier could reasonably deduce from the evidence." [Citation.]"' (People v.
Crabtree (2009) 169 Cal.App.4th 1293, 1321-1322.)
Ample evidence showed Doe 1 was 13 years old or younger when Shumate
abused her after driving her to a dark parking lot. She testified she was in seventh grade
and 12 or 13 years old when it occurred. Her testimony alone suffices. "In cases of sex
crimes committed on children, the age of the child may be established by the child's own
testimony." (People v. Crownover (1939) 34 Cal.App.2d 7, 9.) The jury was properly
instructed it could credit the testimony of a single witness to support any factual finding.
(CALCRIM No. 301; People v. Leigh (1985) 168 Cal.App.3d 217, 221.) Fielder also
testified that Doe 1 was 12 or 13 years old at "the time of the move" during which the
incident occurred, and attorney McGuire testified Doe 1 told him it happened when she
was "approximately 12 years of age."
Shumate relies on the fact that Doe 1 did not remember exactly how old she
was, nor did she "articulate a date" that placed her under the age of 14. No such
specificity is required; it is enough that she had not yet turned 14. (§ 288, subd. (a).)
Shumate reasons that when she told the prosecutor that she was "approximately" 13 years
old at the time of the alleged incident, but could not recall the month, it might have
occurred on or after her 14th birthday. Not so. Born in 1991, her 14th birthday would
have been in 2005, but she testified the abuse was in "2003/2004." There is no merit to
Shumate's challenge to the sufficiency of the evidence.

21

APPENDIX A

00021

3.

CALCRIM No. 207

In a related claim, Shumate contends the trial court erred in giving the jury
an instruction based on CALCRIM No. 207, and that his counsel was deficient for failing
to object to the instruction. The title of the instruction stated its purpose, namely, that the
"Proof Need Not Show Actual Date" that the alleged offenses were committed. The
instruction told the jury that the crime alleged in count 2 occurred within a two year
period "on or about and between" two specific dates. Those dates were Doe l's 12th
birthday and the day before her 14th birthday. Thus, the date range was from when she
turned 12 years old to when she had not yet turned 14, which was one day later. Doe 1
gave the jury her birthdate in her testimony, including the specific day and month.
Shumate asserts that by giving the jury a date range in this "on or about"
manner, the trial court's instruction was erroneous because it did not require the jury to
conclude the offense happened on or before the last day specified, which was the day
before she turned 14. Instead, it might have been simply near or "about" that date,
including afterwards. If committed on or after her 14th birthday, the age element of the
offense would not have been satisfied. (§ 288, subd. (a).) She contends the prosecutor
exacerbated the problem by arguing, as to the date of the offense: "If you think it was in
2002 or you think it was in 2005, that's okay. That doesn't mean the end of your
investigation or your inquiry. It just means it has to be within a reasonable period of time
of the time indicated for you."
Although counsel did not object to the instruction, we reach Shumate's
contention on appeal because defendants in a criminal trial are entitled to jury
instructions that correctly state the law-a "substantial right" (§ 1259) that he claims was
violated here. (People v. Palmer (2005) 133 Cal.App.4th 1141, 1156.)
Shumate' s claim fails because we must read the instructions as a whole,
just as the jurors are instructed to read them. (People v. Dieguez (2001) 89 Cal.App.4th
266, 276.) CALCRIM No. 200 instructed the jury they must "[p]ay careful attention to
22

APPENDIX A

00022

all of these instructions and consider them together." The trial court also instructed the
jury with CALCRIM No. 1110, which specified that the prosecution had to prove for
each of the lewd act counts, including count 2, that "[t]he child was under the age of
14 years at the time of the act." (Italics added.)
Read together with the other instructions, this meant that "reasonably
close" to the end date specified in CALCRIM No. 207, as the prosecutor argued, had to
have been before that date, not after. In other words, count 2 had to have been committed
before Doe 1 turned 14, which would not include her fourteenth birthday. We presume
jurors "are intelligent persons capable of understanding and correlating jury instructions."
(People v. Martin (1983) 150 Cal.App.3d 148, 158.) Moreover, in light of the evidence
placing the offense during "the time of the move" and that it occurred when she was 12
or 13 years old in "2003/2004,'' and thus well before her September birthday in 2005, any
conceivable error in CALCRIM No. 207 as given to the jury was harmless. Shumate's
instructional challenge therefore fails.
4.

Covert Calls
Shumate argues the trial court erred by allowing Doe 2' s mother to

"authenticate" as "accurate" transcripts of recordings of covert calls she made with him,
and he asserts the court further erred by admitting the transcripts as exhibits. We find no
error in the trial court's ruling based on Shumate's limited objection to the transcripts,
which the court addressed with a jury instruction, as we discuss below.
The issue arose as follows. At trial, the prosecutor asked Doe 2' s mother
why she had initialed one of the transcripts "in the upper comer there,'' and she
responded, without objection, that "[i]n listening to the audio recording [of her recorded
conversation with Shumate], I followed through with this [notation] to note that
everything that I'm seeing [on the transcript] is what was being said there." She similarly
testified that she initialed another transcript of calls "as [an] indication [she] reviewed

23

APPENDIX A

00023

this [CD] track, along with this transcript, [and that] other than some typographical
errors, things of that nature,'' it was "an accurate transcript."
Likewise, after the prosecutor played "the third portion and th[ e] fourth
portion" of mother's recorded conversation with Shumate, he asked her whether, in
"following along with the transcripts that have been provided to you, again, are they a
complete and accurate depiction of your telephone conversation with the defendant in this
case back ... in March of 2011 ?" She answered, "Yes."
When the prosecutor reviewed Shumate' s conversation with Doe 2' s
mother, Shumate did not contend that the transcript of the colloquy in which he admitted
he licked Doe 2' s vagina or, "Very close to it,'' was inaccurate. Instead, he testified he
did not touch Doe 2 on her vagina or near it, and only answered mother as he did because
he "feared" her. When the prosecutor asked, "[H]ow [does] telling her that you did
something like this to her daughter help you get over that fear,'' he answered, "Because
she said that she wasn't going to report me, she was not going to tum in [Doe 2's]
journal, and that her child wouldn't be medicated if I did." He feared that mother would
"send out e-mails to a lot of the professionals that I knew and had good relationships with
for many years."
Shumate implied he would suffer undeserved consequences unless he gave
mother the admission she wanted, given that he knew "who [mother] is and what she's
capable of." In this context, he did not view his answers in the transcript as admissions
of guilt. To the contrary, when asked what he wanted to tell the jury about the alleged
touches, he testified, "I can tell them that I did not touch [Doe 2] in any sexual way."
After trial, in his pro per "motion to discharge retained counsel" on
September 16, 2016, Shumate attached an affidavit of an expert he had retained that
month to review the covert call recordings. According to Shumate's expert, "Many of the
statements [on the transcript] were in fact the OPPOSITE of what was actually said. [if]
For Example: The assumed confession when asked 'did you lick her vagina?' the
24

APPENDIX A

00024

transcript answer is recorded as 'yeah' but the response on the recording which is really
quiet says 'no ... I didn't.' This statement is immediately followed by another assumed
confession recorded on the transcript as 'vagina, and god yes I'm sorry.' Once enhanced
you can hear what is being said is ' ... down to kiss and it was over."' The expert also
alluded to "several more inaccuracies ... "between the transcript and the recordings.
Shumate also reviewed the transcripts himself after trial and contended that
in his exchange with mother, the "prosecution deleted his partially inaudible answer
(again denying the allegation) and then replaced it with vagina. And [with] god yes I'm
sorry." Shumate alleged that these and other words were "added to create harmful and
off color remarks which I did not make." He asserts in his brief on appeal that "the
prosecutors and police had 'limitless access to any word or phrase [he] may have spoken
to anyone [among] the members of his defense team," which they used to falsify not only
the transcripts, but also the "audio tapes admitted at trial."
Now on appeal, Shumate contends that the trial court erred in allowing
mother to authenticate the transcripts. He asserts, "The erroneous authentication of the
transcripts caused the jury to overemphasize the value of the transcript so that the
transcript, not the tape, became the evidence." Shumate faults the trial court for
"apparently never listen[ing] to the tape recording to compare the tape to the transcript
prepared and submitted by the prosecution" and because the court "never directed the
parties to meet and agree on those portions of the transcript which should be deleted or
replaced with asterisks or the word 'inaudible' or 'unintelligible."' He also contends the
court erred in "not recommend[ing] that trial counsel prepare a transcript representing
Shumate's version of the tape recording."
We observe that well before trial, when the parties and the court were
discussing discovery in June 2015, the court asked defense counsel if he planned to have
the calls transcribed, and counsel did not answer affirmatively, stating only that
Shumate's voice was difficult to hear. At the next hearing a few weeks later, the
25

APPENDIX A

00025

prosecutor indicated that her technology department had informed her the recordings
could be enhanced for better sound quality and provided to the defense. When the court
inquired whether "you're okay with that process,'' defense counsel responded, "Yes."
On direct appeal, we review claims of error in a trial court's evidentiary
rulings based on the circumstances before the court when it made the ruling, including
whether an objection was made and the grounds for the objection. Specifically, we
"'review the correctness of the trial's ruling at the time it was made ... and not by
reference to evidence produced at a later date." (People v. Robertson (2012)
208 Cal.App.4th 965, 991.) To preserve a claim of error, the party must have objected
below and "ma[d]e clear the specific ground of the objection." (Evid. Code,§ 353,
subd. (a).) "'The reason for the requirement is manifest: a specifically grounded
objection to a defined body of evidence serves to prevent error. It allows the trial judge
to consider excluding the evidence or limiting its admission to avoid possible prejudice.
It also allows the proponent of the evidence to lay additional foundation, modify the offer

of proof, or take other steps designed to minimize the prospect of reversal.' [Citation.]"
(People v. Partida (2005) 37 Cal.4th 428, 434 (Partida).)

These rules govern our review here, where Shumate does not raise a claim
of ineffective assistance of trial counsel regarding preparation of the transcripts.
Therefore, we review only his specific objection to the transcripts at trial, which was
limited to their admission as exhibits. He did not challenge what he now characterizes as
mother's "authentication" of the transcripts. That claim is therefore forfeited. (Partida,
supra, 37 Cal.4th at p. 435.)

As the trial wound down and the parties and the court addressed moving
exhibits into evidence, defense counsel objected to admission of the transcripts. Counsel
stated, "I think the transcripts shouldn't be admitted into evidence, but the audio CD, I
don't have any objection to those." The court noted "that doesn't mean they [the jurors]
can't use them as an aid to recollection, as I admonished them. Every time I told them,
26

APPENDIX A

00026

when we had a transcript, they can have them as an aid to listening to the DVD. The
DVD is evidence and controls. If there's a conflict between the two, the DVD prevails.
They may keep a copy of [the transcript], make notes on it, use it for clarification as an
aid to recollection."
Observing that "if you're going to produce any audio, you're required to
produce a transcript,'' the prosecutor argued that, having "written notes on it" and being
"allowed to take it back there" to the jury room, "I don't see ... a functional difference
between having it marked as an exhibit and calling it an exhibit versus having it back
there as an aid."
The trial court concluded "the transcripts will be allowed in,'' admitted
them as exhibits, and noted that in addition to its previous admonishments concerning use
of the transcripts during trial, it would instruct the jury further on their use, including
omissions. The court instructed the jury: "The transcripts of the CD/audio that you have
in your binders were received into evidence as exhibits. Sections of a transcript may
have been deleted. Disregard any deleted sections and do not try to guess what they
might have been." The court also instructed the jury, "The transcripts are an aid to assist
you in listening to the CD/audio. The CD/audio is evidence and controls. If there's a
conflict between the CD/audio and transcript, the CD/audio prevails."
We review a trial court's evidentiary rulings for abuse of discretion.
(People v. Cowan (2010) 50 Cal.4th 401, 462.) This includes admission of a transcript of
a tape recording. (People v. Polk (1996) 47 Cal.App.4th 944, 953, 956 (Polk).) The rules
of court require that a party must provide a transcript of any recording played at trial.
(Cal. Rules of Court, rule 2.1040(a)(l); San Francisco Tomorrow v. City and County of
San Francisco (2014) 229 Cal.App.4th 498, 532 & fn. 32.)
"' [T]ranscripts of admissible tape recordings are only prejudicial if it is
shown they are so inaccurate that the jury might be misled into convicting an innocent
man."' (Polk, supra, 47 Cal.App.4th at p. 955.) Shumate has not done so here, where
27

APPENDIX A

00027

that was not the basis of his objection below. As in Polk, the trial court here did not
restrict the defense from "prepar[ing] a transcript representing its version of the tape"
recording. (Id at p. 955.) There, the defense "submitted its version of the tape
recording,'' which enabled the court to direct the parties "to meet and agree on those
portions of the transcript which should be deleted or replaced with asterisks or the word
'inaudible' or 'unintelligible."' (Ibid) It also enabled the jury "to compare the different
versions while listening to the tape." (Ibid)
Here, the record reflects that the court, the attorneys, and the jurors
followed along in the transcripts as the recordings were played at trial, and none raised
any concern that the transcripts were inaccurate. (See Polk, supra, 47 Cal.App.4th at
p. 955.) This raises a strong inference that the transcripts accurately reflected the tapes as
played in court. As in Polk, the trial court admonished the jury that "the transcript was
only to be used as an aid in determining what was actually said on the tape" (id at
p. 952), and the court here instructed the jury that the tape controlled if there was any
doubt. Additionally, as was the case in People v. Jones (2017) 3 Cal.5th 583, Shumate
did not "request any specific changes to the transcript." (Id at p. 611.) Instead, he
adopted it and the recording played in court as being correct, and attempted to explain the
incriminating portions. In these circumstances, we find no abuse of discretion in the trial
court's admission of the transcripts.
5.

Fresh Complaint Doctrine

Shumate contends the trial court erred in admitting evidence of Does I and
2's reports of abuse under the fresh complaint doctrine. Each disclosed Shumate's abuse
to a third party, who then testified about the report at trial. For Doe 2, the third party was
her mother. Shumate did not object to testimony by Doe 2' s mother relaying Doe 2' s
disclosure, thereby forfeiting his fresh complaint challenge on appeal. (Evid. Code,
§ 353.) We find no error in the trial court's ruling admitting Doe l's disclosure to

28

APPENDIX A

00028

attorney McGuire under the fresh complaint doctrine. The abuse of discretion standard
applies (People v. Alvarez (1996) 14 Cal.4th 155, 203); there was none here.
Under the fresh complaint doctrine, "proof of an extrajudicial complaint,
made by the victim of a sexual offense, disclosing the alleged assault, may be admissible
for a limited, nonhearsay purpose-namely, to establish the fact of, and the
circumstances surrounding, the victim's disclosure of the assault to others-whenever the
fact that the disclosure was made and the circumstances under which it was made are
relevant to the trier of fact's determination as to whether the offense occurred." (People
v. Brown (1994) 8 Cal.4th 746, 749-750 (Brown).) The evidence is admissible only "for
the limited purpose of showing that a complaint was made by the victim, and not for the
truth of the matter stated. [Citation.] Evidence admitted pursuant to this doctrine may be
considered by the trier of fact for the purpose of corroborating the victim's testimony, but
not to prove the occurrence of the crime." (People v. Ramirez (2006) 143 Cal.App.4th
1512, 1522.)
The Supreme Court "caution[ ed]" in Brown that "if the details of the
victim's extrajudicial complaint are admitted into evidence, even with a proper limiting
instruction, a jury may well find it difficult not to view these details as tending to prove
the truth of the underlying charge of sexual assault." (Brown, supra, 8 Cal.4th at p. 763.)
Shumate contends that is what occurred here. We disagree.
Attorney McGuire testified that Doe 1 told him Shumate digitally
penetrated her when she was six years old at her church, and there was an incident in a
car that included oral copulation and digital penetration when she was 12 years old.
The nature of the alleged sexual conduct may be disclosed under the
doctrine. Thus, complaints to a third party that the defendant touched the child '"in my
weenie"' in a public restroom (People v. Daily (1996) 49 Cal.App.4th 543, 548, 552) or
"'pulled her pants down and ... kissed her between the legs"' (People v. Cordray (1963)
221 Cal.App.2d 589, 594) are admissible. The same is true for the fresh complaint here.
29

APPENDIX A

00029

6.

Pitehess Motion
Shumate requests that we review for discoverable information, if any, the

record of the sealed proceedings the trial court conducted pursuant to Pitehess v. Superior
Court (1974) 11 Cal.3d 531 (Pitehess). The Attorney General agrees our review is
appropriate.
Shumate sought Pitehess review in the trial court of a jail sergeant's
personnel files, correctly anticipating that the sergeant would testify in rebuttal. The
sergeant testified that before trial Shumate threatened publication of a Web site critical of
the sheriffs department, in particular the Orange County jail facilities, unless "you guys"
prevented Doe 1 from "show[ing] up to court on Monday." According to the sergeant,
Shumate explained that if Doe 1 did not testify, he would win his case.
In conducting its in camera Pitehess review, the trial court swore in the
custodian of records in charge of the sergeant's personnel and other files, including those
reporting grievances, if any. The court questioned the custodian about the procedures in
which complaints make their way into the file or database, including inmate complaints,
and then the court reviewed the files. The court described the contents of the files,
including total number of pages and categories of documents within each, and found "no
discoverable materials."
We review a trial court's decision on a Pitehess motion for an abuse of
discretion. (People v. Mooe (2001) 26 Cal.4th 1216, 1228 (Mooe).) After independently
reviewing the sealed record of the in camera proceeding, we find nothing suggesting an
abuse of discretion in failing to order disclosure of any documents. (Mooe, at p. 1232.)
The Pitehess proceedings therefore furnish no basis to reverse Shumate's conviction.
7.

Cruel and/or Unusual Punishment
Shumate argues he does not deserve a sentence of 45 years to life "for

touching the two girls three times." According to Shumate, his sentence constitutes cruel
and unusual punishment violating the Eighth Amendment to the United States
30

APPENDIX A

00030

Constitution, and it similarly violates the cruel or unusual punishment clause of article I,
section 17 of the California Constitution. Both clauses "prohibit punishment that is
'grossly disproportionate' to the crime or the individual culpability of the defendant."
(People v. Mendez (2010) 188 Cal.App.4th 47, 64.)
"Outside the death penalty context, "'successful challenges to the
proportionality of particular sentences have been exceedingly rare."' [Citations.]"
(People v. Reyes (2016) 246 Cal.App.4th 62, 83 (Reyes).) Such findings "occur[] with
exquisite rarity" (People v. Weddle (1991) 1 Cal.App.4th 1190, 1196) because "in our
tripartite system of government it is the function of the legislative branch to define crimes
and prescribe punishments." (In re Lynch (1972) 8 Cal.3d 410, 414.) Consequently, the
defendant must overcome a "considerable burden" to override the sentence. (People v.
Bestelmeyer (1985) 166 Cal.App.3d 520, 529.) It must be clearly, positively, and
unmistakably unconstitutional. (People v. Rhodes (2005) 126 Cal.App.4th 1374, 1390.)
Shumate does not meet that burden here.
Arguing his sentence is too harsh compared to those meted out for other
crimes, he points to a sentence length of 5 to 25 years in New York for two or more acts
of sexual misconduct with a child over a period of more than three months (N. Y. Pen.
Code, §§ 70.02, 130.75(1)(A)), and up to 16 years for repetitive sexual abuse of a minor
residing with the offender in California(§ 288.5). He also suggests his crimes cannot be
compared to killing a victim, yet he received almost double the term of 25 years to life
for first degree murder. (§ 187.) He similarly cites other crimes of force, "none of which
gamers a life sentence,'' including rape(§ 264), willful infliction of corporal injury on a
child(§ 273d, subd. (a)), forcible lewd conduct with a child under 14 years of age(§ 288,
subd. (b )), and statutory rape of a child under age 16 (§ 261.5, subd. (d)).
We disagree with Shumate's analysis. First, we observe that the New York
sentence of up to 25 years is longer than if he had limited his crimes here to one victim.
(See§ 288, subd. (a) [terms of up to 8 years for each offense].) Second, the sentences he
31

APPENDIX A

00031

references for individual offenses are not relevant because "[t]he penalty for a single
offense cannot be properly compared to the penalty for multiple offenses." (People v.
Estrada (1997) 57 Cal.App.4th 1270, 1282.) Third, Shumate's victims were very young.
"It is well within the prerogative of the Legislature to determine that sex offenses against

young children are deserving of longer sentences than sex offense against adults or
nonsex offenses." (People v. Gomez (2018) 30 Cal.App.5th 493, 502.)
Shumate committed sex offenses against multiple children, "society's most
vulnerable victim[s]." (Reyes, supra, 246 Cal.App.4th at p. 85.) Offenses against
multiple victims triggers the Legislature's justifiable concern for sex offender recidivism.
(See§ 667.61, subd. (e)(4); see, e.g., People v. Wutzke (2002) 28 Cal.4th 923, 929-930.)
"California has recognized, and reasonably so, that sex offenders present a serious danger
to society because of their tendency to repeat their sexual offenses. Sexual offenses not
only invade the deepest privacies of a human being, and thereby may cause permanent
emotional scarring, but they frequently result in serious physical harm to, or death of, the
victim." (People v. Meeks (2004) 123 Cal.App.4th 695, 709.)
In particular, a defendant who has reoffended over a lengthy period against
multiple victims presents heightened risks and greater culpability. An insignificant or
nonexistent prior criminal record may weigh in the defendant's favor, as it does for
Shumate, but "three separate sexual offenses ... and abuse of trust against a vulnerable
victim do not." (People v. Baker (2018) 20 Cal.App.5th 711, 723.) Shumate had
significant time to reflect during the six or seven years between his lewd assaults on
Doe 1, and additional time before he abused Doe 2. In both instances, he had a close,
family-like relation with the victims, and he violated their trust. Incapacitation to prevent
a perpetrator from reoffending, retribution, and deterrence are all valid penological goals
that apply here, along with rehabilitation where there is the opportunity for parole. (In re
Nunez (2009) 173 Cal.App.4th 709, 730.)

32

APPENDIX A

00032

Weighed against these considerations, we cannot say Shumate' s
punishment was disproportional to his offenses.

DISPOSITION
The judgment is affirmed.

GOETHALS, J.
WE CONCUR:

MOORE, ACTING P. J.

IKOLA, J.

33

APPENDIX A

00033

Court of Appeal, Fourth Appellate District, Division Three
Kevin J. Lane, Clerk/Executive Officer
Electronically FILED on 1/5/2021 by Emad Dalati, Deputy Clerk

APPENDIX A

00034

SUPREME COURT

F ! LED
Court of Appeal, Fourth Appellate District, Division Three - No. G056263

FEB 2 4 2021

Jorge Navarrete Clerk

8266523
Deputy

IN THE SUPREME COURT OF CALIFORNIA
En Banc
THE PEOPLE, Plaintiff and Respondent,

v.
BRANDEN EDWARD SHUMATE, Defendant and Appellant.

The petition for review is denied.

CANTIL-SAKAUYE
Chief Justice

APPENDIX B

0001

